NO. ___
IN THE SUPREME COURT OF THE UNITED S TATES
OCTOBER TERM 2021K
NICKIE NATHANIAL RICO, .- PETITIONER
VS.
UNITED STATES OF AMERICA-RESPONDENT(S)
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of
certiorari without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
[X] Petitioner has previously been granted leave to proceed in forma
pauperis in the following court(s):
United States Court of Appeals for the Tenth Circuit.
United States District Court for Colorado.
[]
Petitioner has not previously been granted leave to proceed in
forma pauperis in any other court.
[] Petitioner's affidavit or declaration in support of this motion is
attached hereto.
[X] Petitioner's affidavit or declaration is not attached because the
court below appointed counsel in the current proceeding, and:
[]
[]

The appointment was made under the following provision of law:
or
A copy of the order of appointment is appended.
____________________
J. Lance Hopkins
Attorney for Nickie Nathanial Rico

